Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




COST CONTAINMENT FOR MEDICAID 

     DISABILITY PROGRAMS 





                   JUNE GIBBS BROWN
                   Inspector General

                        JULY 1997
                      OEI-059MO4OO
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.



                        Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the 

Office of Inspector General. It conducts short-term management and program 

evaluations (called inspections) that focus on issues of concern to the Department, the 

Congress, and the public. The inspection reports provide findings and 

recommendations on the efficiency, vulnerability, and effectiveness of departmental 

programs. 


OEI’s Chicago Regional Office prepared this report under the direction of William C. 

Moran, Regional Inspector General, and Natalie Coen, Deputy Regional Inspector 

General. Principal OEI staff included: 


REGION                                    HEADQUARTERS

Barbara Butz, Project Leader              Jennifer Antico, Program Analyst 

Suzanne Johnson, Program Analyst          Barbara Tedesco, Technical Support Staff 

Jean Dufresne, Program Analyst 





To obtain a copy of this report, call the Chicago Regional Office at (312) 353-4124.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




COST CONTAINMENT FOR MEDICAID 

     DISABILITY PROGRAMS 





                    JUNE GIBBS BROWN
                    Inspector General

                         JULY 1997
                       OEI-O5-95-00400
              EXECUTIVE                         SUMMARY

PURPOSE

To identify trends in the growth of Medicaid disabled beneficiaries and expenditures I
related to them, and describe State efforts to contain such costs while ensuring quality
care.                                        .

BACKGROUND

In fiscal year 1995, the Medicaid program served 35 million beneficiaries at a cost of
$135 billion to the States and Federal Government. Almost 6 million of these
beneficiaries were blind or otherwise disabled, and they accounted for $49 billion in
expenditures.

Between 1993 and 1995, Medicaid expenditures increased 33 percent, while the
national medical price index increased only 9.6 percent. Concerned about costs, States
have increasingly requested waivers from the Health Care Financing Administration to
allow them greater flexibility in Medicaid, including implementing managed care and
various waiver programs. There are a couple of potential ramifications for Medicaid
disability expenditures. First, there is the issue of whether cost savings initiatives
adequately address that portion of Medicaid expenditures devoted to disability. At the
same time, such proposals and projected funding cuts have led some to question
whether beneficiaries with disabilities might experience a loss of coverage or weaker
benefit packages.

We analyzed national data about Medicaid expenditures for disabled persons and
closely examined how five States with very large Medicaid programs were trying to
contain costs while providing quality services for disabled persons.

FINDINGS

RAPID GROWTH OF MEDICAID DISABILITY                  PROGRAMS:       The number of
disabled beneficiaries grew 17 percent in 2 years.

In the 2 years from 1993 to 1995, the number of disabled Medicaid beneficiaries grew
from 5.0 to 5.85 million. Expenditures for disabled persons increased from $38.6 to
$49.2 billion. In 24 States, these expenditures grew 27 percent or more; 8 States
experienced growth between 45 and 123 percent.

In 1995, disabled beneficiaries were 17 percent of Medicaid beneficiaries, the second
smallest group (following the elderly), but accounted for 37 percent of expenditures,
the largest proportion of expenditures. States spent from 23 to 49 percent of all
Medicaid dollars for disabled persons alone. The average per capita cost for this



                                            i
group was $8,422 compared to $1,777 per adult and $1,046 per child in the needy
family population.

BROAD STRATEGIES NOT TARGETED AT DISABLED POPULATION: 

Sample States target Medicaid cost containment primarily at the less expensive needy 

family programs rather than the more costly disabled programs. 


None of the sample States are focused strategically on containing Medicaid costs for
disabled beneficiaries as a group. They are turning to managed care to contain
Medicaid costs, especially through waivers that allow them to develop broad managed
care demonstration programs. However, these demonstrations will probably not result
in cost savings relative to the disabled population in the foreseeable future. They are
too new and targeted primarily at needy families. The cost savings projected are
broad, speculative, and in some cases will not appear for the first 2 or 3 years of
operation.

FEW INITIATIVES TARGETED AT TOP EXPENDITURES FOR DISABLED
PERSONS Sample States have few initiatives to reduce costs for hospital inpatient
and Intermediate Care Facilities-Mentally Retarded (ICFs-MR) services, which
account for the largest proportions of their spending for the disabled.

We found no initiatives in our five State study for reducing hospital inpatient costs for
the disabled. All States have home and community based care waivers for persons
with mental retardation or developmental disabilities as part of a shift away from
costly institutional placements. However, the waivers affect a small proportion of
disabled beneficiaries and these data on cost savings is incomplete and unreliable.

DISABILITY lNlTIATM3           ARE MODEST: States also use waivers to serve other
relatively small groups of disabled beneficiaries. Their impact on cost containment is
not clear.

In addition to serving people with mental retardation or developmental disabilities,
States serve others with disabilities with waivers. However, numbers served are very
small and cost data is incomplete.

RECOMMENDATION

The Health Care Financing Administration and the O&e of the Assistant Secretary
for Planning and Evaluation should develop a research agenda aimed at controlling
costs while assuring quality of care for disabled Medicaid beneficiaries.

We are aware that there is a lot of Medicaid experimentation    being conducted by the
States, primarily through waivers and managed care. After examining the literature,
participating in conferences and discussing both the waivers and other plans with
appropriate State personnel, our findings indicate that the large States in our sample
have not yet come to grips with the difficult problem of providing quality care, yet


                                            ii
containing costs, for the Medicaid disability programs. While these findings do not
lead to recommendations for quick fixes or even for programmatic changes, we do
believe that there is a compelling need to better understand the significant cost forces
that these disability programs portend for the broader Medicaid program of the future.

The need then is to develop a research agenda at the Federal, State and local levels
that examines the cost and quality of health care for this population. A starting point
could be the Health Care Financing Administration’s and the Assistant Secretary for
Planning and Evaluation’s research agenda that focuses on managed care for people
with disabilities. Efforts, other than managed care, could include focusing on ICFs-
MR, skilled nursing facilities, and in-patient hospitals. Home and community based
waivers and other significant initiatives that are important for persons with disabilities
should also be studied. We believe that constructing a research agenda for the future
now will result in better quality care and cost savings in the next 5 to 10 years.

We recommend that the Health Care Financing Administration (HCFA) and the
Office of the Assistant Secretary for Planning and Evaluation (ASPE) jointly develop
such a research agenda.

In response to HCFA’s request, we suggest, among others, the following six studies:

  .	   A historical study of the Medicaid treatment received by people with
       disabilities. This study would focus on the efficacy of current public programs
       ability to provide the myriad health care, rehabilitative and support services
       required by the Medicaid disabled population.

  .	   The development and evaluation of the efficacy of integrated care models for
       financing acute and long-term care for people with disabilities.

  .	   A comparative evaluation of the Medicaid disabled population served by State
       managed care health care systems and fee-for-service systems.

  .	   A comparative evaluation of access, quality and costs under selected State
       ICFs-MR programs.

  .	   An evaluation of the appropriateness of various services and care settings for
       the Medicaid disabled population based on their ability to produce the most
       efficient and effective outcomes.

  .	   An evaluation of the appropriateness of medical requirements in State
       Medicaid programs that impact people with disabilities. This study would
       examine the extent to which these requirements act as barriers to consumer
       independence and if these requirements could be reduced or eliminated to
       effect greater consumer control and reduce costs without jeopardizing the
       health and safety of consumers.



                                            ...
                                            111
AGENCY COMMENTS

We received comments from the Health Care Financing Administration (HCFA), the
Assistant Secretary for Management and Budget (ASMB) and the Assistant Secretary
for Planning and Evaluation (ASPE). All concurred with the recommendation and
offered suggestions for clarification and technical comments regarding the report.
Changes have been made to the report based on these comments as appropriate. The
complete text of HCFA’s, ASMB’s, and ASPE’s comments can be found in Appendix
B.

Both HCFA and ASMB raised questions involving data, some relating to issues which
we ourselves had raised in the report. A more detailed analysis of these concerns is
provided in our response to their comments contained in the body of the report.




                                          iv
                       TABLE                           OF               CONTENTS

                                                                                                                                  PAGE 

EXEcZUTIVESUMMARY                           ..........................................                                                i


INTRODUClION               .................................................                                                          1


FINDINGS       ......................................................                                                                 5


 �    Disabled Beneficiaries and Expenditures                           Growing Fast ...................                              5


 �    States Lack Broad Cost Containment                           Strategies for the Disabled                      ...........       6


 �    Few State Efforts to Control Top Expenditures                                      ........................                     9


 �    Impact of Smaller Efforts Unclear                        .................................                                     12 


RECOMMENDATION                      ............................................                                                     12 


APPENDIX A: BIBLIOGRAPHY                                  ..................................                                        A-l

APPENDIX       B: AGENCY COMMENTS                                   ..............................                                  B-l
                               INTRODUCTION

PURPOSE

To identify trends in the growth of Medicaid disabled beneficiaries and expenditures
related to them, and describe State efforts to contain such costs while ensuring quality
care.


BACKGROUND

Medicaid (Title XIX of the Social Security Act) is a joint Federal-State means-tested
entitlement program, administered by the Health Care Financing Administration
(HCFA). The Federal Government provides matching funds to States, which
administer the program under Federal guidelines but may make certain policy choices
and determine how their program will be structured. State Medicaid programs thus
vary with respect to eligibility criteria, service coverage, provider payment
arrangements, and program administration.

In fiscal year (FY) 1995, Medicaid served 35 million beneficiaries at a cost of $135
billion. Almost 6 million of these beneficiaries were blind or otherwise disabled, and
they accounted for $49 billion in expenditures. They included people receiving
Supplemental Security Income (SSI) and people receiving Medicaid but no cash
benefits due to excess resources. The disabled Medicaid population can be divided
into three very broad groups based on primary disability: those with a physical
disability, those with a mental illness, or those with mental retardation. As of
December 1994, 43 percent of the under-65 SSI population was physically disabled, 29
percent had a mental illness, and 29 percent had a developmental disability or mental
retardation. A small number received SSI based on a substance abuse disorder.
Recent changes in Federal guidelines eliminate eligibility based on substance abuse.

The disabled make up the most diverse Medicaid beneficiary group whose needs are
equally disparate. Children with spina bifida, the mentally retarded, persons with
acquired immunodeficiency syndrome (AIDS), the chronically mentally ill, accident
and stroke victims and individuals with such physical disabilities as blindness, muscular
dystrophy and rheumatoid arthritis are but a few of the many faces of the Medicaid
disabled. Many disabled Medicaid beneficiaries have chronic conditions that require
ongoing and costly specialty care, such as end-stage AIDS patients, while others have
few or no additional costs beyond those of the general popu1ation.i




    ’ “Medicaid Managed Care: Serving the Disabled Challenges State Programs,” United States General
Accounting Office, GAO/HHS-%-1X,   July 19%.


                                                       1
Using a broad array of acute (i.e., inpatient hospital), primary (i.e., clinic visits) and 

long-term (i.e., nursing home) care services, on average, health care expenditures for 

the disabled are about 5 percent of their expenditures for long-term care.2 

Nationally, nursing home care expenditures are primarily financed through Medicaid at 

about 52 percent and the beneficiary, who incurs about 33 percent in out-of-pocket 

expenses.3 


“Long-term care” refers to a range of medical, social, personal, supportive and 

specialized housing services needed by individuals who have lost some capacity for 

self-care because of a chronic illness or condition. Chronic conditions are the leading 

cause of illness, disability and death in the United States, affecting about 99 million 

people in 1995.4 While chronic conditions occur in individuals of all ages, their 

incidence, especially as they result in disability, increases with age. With advances in 

medical technology and the aging of the baby boom generation, individuals living with 

a chronic condition are projected to grow to 134 million by 2020.5 


Since 1965, Medicaid has grown from a health financing program for welfare 

recipients to a major source of health care coverage for low-income families, 

supplementary insurance for Medicare beneficiaries, and long-term care for the elderly 

and disabled. From 1989 to 1992, Medicaid spending grew twice as fast as total health 

care spending, or an average annual increase of 20.5 percent. Between 1993 and 

1995, expenditures increased from $101.7 billion to $134.9 billion, or 33 percent, while 

the national medical price index increased only 9.6 percent during that period. In 

1995, the Congressional Budget Office estimated that without changes, total Medicaid 

spending would increase by more than 10 percent annually over the following five 

years, reaching $262 billion by 2002. 


Concerned about rising costs, States have increasingly requested waivers from HCFA 

of various Medicaid provisions designed to allow them greater flexibility in their 

programs. Currently, 49 States have implemented managed care programs for all or 

segments of their Medicaid populations. As of June 30, 1995, 11.6 million Medicaid 

beneficiaries were enrolled in managed care plans, representing 32 percent of total 

beneficiaries. States have also used waivers, particularly home and community based 

waivers, to serve certain Medicaid populations, including the disabled, in their homes 

or communities rather than institutions. 





   2 Ashbaugh, John and Smith, Gary, “Beware the Managed Health-Care Companies,” Mental Retardation,      June
19%.

    3 “Chronic Care in America: A 21st Century Challenge,” Prepared by The Institute for Health & Aging,
University of California, San Francisco for The Robert Wood Johnson Foundation, Princeton, New Jersey, August
19%.

   4 Ibid.

   5
       Ibid.


                                                       2
There has been a lot of activity around these various waivers, including written
descriptions of what they are about and some evaluative reports that have explored
their effectiveness or impact. However, with their continued rapid growth, innovative
nature, and differences among States, the waivers have been difficult to assess in terms
of their successes and failures.

Proposals for national Medicaid reform have been made in recent months by the
Administration, Congress, and the National Governors’ Association. These include
creating a Medicaid block grant, with an associated cut in spending, and imposing a 5
percent cap, either on aggregate Medicaid expenditures or on a per capita basis. Such
proposals and projected funding cuts have led some to question whether beneficiaries
with disabilities might experience a loss of coverage or weaker benefit packages. Of
further concern are proposals that would, in effect, repeal certain Federal standards
ensuring coverage and services for certain populations.


SCOPE AND METHODOLOGY

This report first analyzes recent growth of the Medicaid disabled population and 

associated spending, nationally and across States. This analysis is based on figures 

reported by States to HCFA on Form 2082 for 1993 through 1995.6 Form 2082 

summarizes a State’s combined State and Federal Medicaid spending by beneficiary 

group and service, for a 1 year period, 


The report then describes how five States which accounted for a high proportion of 

Medicaid expenditures in 1995 are approaching cost containment relative to disabled 

beneficiaries. Four States (California, Illinois, New York, and Texas) ranked in the 

top five in total 1995 Medicaid expenditures; Massachusetts ranked eighth. These 

States represent a geographic and demographic mix. In 1995, they collectively 

accounted for: 41 percent of all Medicaid spending; 34 percent of all disabled 

beneficiaries; and, 42 percent of expenditures for that population. 


The description of State cost containment efforts is based on a literature review7 and 

discussions with HCFA regional staff and respondents from Medicaid and other 

agencies in the sample States. We wanted to learn about cost containment strategies 

of these States relative to: the disabled population as a whole; the highest categories 

of expenditures for the disabled; and specific disabled populations or services for 

them. We sought the best, most complete information available about State activities 

as of the summer and fall of 1996. However, some information in this report 

inevitably will be incomplete or out of date by the time the report is issued. The topic 

is very broad, Medicaid reforms are proceeding very rapidly in these States, and 



   6 As of May l!W6, fiscal year 1995 data was complete with the exception of New Hampshire.

       Articles and reports by national organizations, budget documents from the States, their Medicaid plans, waiver
proposals and reports to HCFA, and other program-specific material they sent to us.


                                                          3
sometimes it was impossible to connect with the most knowledgeable     respondents   due
to State agency reorganizations.

We are aware, through our literature review and discussions with various State officials
and organizations, that some States have attempted to cut or contain expenditures on
behalf of their disabled Medicaid population through such efforts as: more intensive
case management, risk adjusted payment systems for managed care plans, preventing
unnecessary utilization through gate keeping and substitution of certain services for
more costly forms of care. The scope of this study is confined to five States that
spend 42 percent of all Medicaid disabled funds and thus does not allow for a detailed
discussion of initiatives in other smaller States.




                                           4

                                        FINDINGS 


 RAPID GROWTH OF MEDICAID DISABILITY PROGRAMS: The number of
 disabled beneficiaries grew 17 percent and expenditures grew proportionately.

 To examine trends in the number of disabled beneficiaries, expenditures, and services,
 we analyzed Medicaid data reported by States to the Health Care Financing
 Administration for fiscal years 1993, 1994, and 1995.

 Between FYs 1993 and 1995:

   .	   The number of disabled Medicaid beneficiaries grew 17 percent nationally
        (from 5.0 to 5.85 million), significantly outpacing growth of 6 percent of total
        beneficiaries. In 29 States, growth of disabled beneficiaries exceeded 17
        percent.

   .	   The proportion of all Medicaid beneficiaries who are disabled grew nationally
        from 15 percent to 16.6 percent.

   .	   Expenditures for the disabled increased 27 percent (from $38.6 to $49.2 billion)
        compared to the medical price index of 9.6 percent. Twenty-four States saw
        increases of this proportion or greater; eight States saw increases from 45 to
        123 percent. Only six States saw a decrease.

 In 1995:

   .	   Disabled beneficiaries were 17 percent of all Medicaid beneficiaries nationally,
        the second smallest group (following the elderly), but accounted for 37 percent
        of expenditures, the largest proportion of expenditures. Figure 1 shows
        Medicaid beneficiaries by type, and expenditures by type of beneficiary, for FY
        1995.

        Medicaid Enrollees by Type in FY 1995           Medicaid Expenditures by Type in FY 1995
                    (N-35.278.512)                                  (N - W34868.322.467)




                  Low Income Children (49%)

Figure 1

                                                5
    .	   States spent between 23 percent and 49 percent of all Medicaid dollars on the
         disabled alone. Thirteen States spent 40 percent or more.

   .	    The average per capita cost was $8,422, with a huge range across the 50 States
         from about $1,100 in Arizona to almost $19,000 in New York. California’s per
         capita is roughly $6,000, while Illinois is about $10,000. We do not know why
         such great variation exists, although the existence of large institutional ICFs/MR
         in some States may be one factor that increases the costs. The national per
         capita cost is four and a half times more than the $1,777 cost per adult and
         eight times more than the $1,046 cost per child in the needy family population.
         Cost per aged recipient was slightly higher at $8,847.

   .	    After adjusting for inflation between 1993 and 1995, overall per capita costs
         were $8,443 in 1993, $8,114 in 1994, and $8,422 in 1995.

Figure 2 on page 7 shows national and State Medicaid expenditures for disabled
persons, as a proportion of total Medicaid expenditures and per capita.


BROAD STRATEGIES NOT TARGETED AT DISABLED POPULATION: 

Sample States target Medicaid cost containment primarily at the less expensive needy 

family programs rather than the more costly disabled programs. 


None of the sample States is focused strategically on containing Medicaid costs for
disabled beneficiaries as a group. In general, they are turning to managed care to
contain Medicaid costs, especially through Section 1115 waivers that allow them to
develop broad managed care demonstration programs.’

Section
      1115Lkmwnstration 

                     Programs


We acknowledge that there are a few States that have included disabled persons in
managed care waivers, most notably Oregon and Tennessee. How those States will
fare with that population and whether any successes will be able to be replicated in
the larger States are very open questions at the current time.

Waiver programs in the sample States include those approved by HCFA and
beginning implementation (Illinois and California), others approved by HCFA but not
the State legislature, or vice versa (New York, Massachusetts), and one in the
planning stage (Texas).

While we have no hard evidence, we have some doubt that these Section 1115
demonstrations will result in cost savings relative to the disabled population, at least in



    * Section 1115 of the Social Security Act permits a State, with Federal approval, to waive any requirements   of
the Medicaid program, including eligibility standards, covered benefits, and enrollment in managed care.


                                                          6 

         FY1995MFLDICAIDSPENDINGONDlSABLEDz                         asPemmtdTotdSpahgaodPaCapita                Figure 2

   state
   AR                                                                  $67o,O31,189        87399       WA=
    IL                                                               $q755,075~54          m=          ts,~
   MI                                                                Sl#w31~31             =w52        f7206
   MN                                                                s1,191,420917         75370      s15,766
   NJ                                                                s1,750,643,859        144p29     s12J55
   RI                                                                  $3tq47oJ72          w52        S12018
   WI                                                                  s755993$38          104,745     $7217
   MA                                                                swwa-                 16oJo1     SlK227
   DC                                                                  t252419,725         23Qo1      slow
   OR                                                                  s=ww=               46J57      SllJ53
   MD                                                                  s925,q192           W=         SlOm9
   ID                                                                  s165$46J31          l&f=        s4m
   KY                                                                  ss90,7np40         1W           se-
   NY                                                                S9,670,729,780       510373      Slag41
   MT                                                                  S130,754~~          1w1         SW2
   DE                                                                 s144424B69           12642      s11,741
   SD                                                                 s136J70&521          13,486     SlO,142
   VT                                                                 s143&2w37            14&99       $9;1&)
   NE                                                                 $219574$xX3          a-          $9,168
   ME                                                                 s32Os2719            31971      s10,017
   IA                                                                 s-ww=                50,057     $9,168
   CG                                                                 t(~~~                49,466     $9,177
   CA                                                                W&-W5                742,312     tisgo2
   AL.                                                                $594.502.617        131365      SC=
   ND                                                                 s119306$41            4m        s13&82
   NV                                                                 3141.63w27           16,181     s&753
   LA                                                                S1,181,094~7         M&l34       S7.376
   TN                                                                 tsss#B              =A=         up11
   KS                                                                 $346,611,769         39,179     SW47
   SC                                                                 s614m,m5             %=         W@l
   WV                                                                 -793                 74,645     w74
   HI                                                                  s%mf=               13,679     %l=
   MS                                                                 s533?92%616         125811      uw
   WA                                                                 f563952419          ltM.816     55l-
   PA                                                                $1,761,583,845       269,042
   NM                                                                 $306~517,118         3806       $7,700
   ur                                                                 $185,679,412         19,010     VJJG
   VA                                                                 S-JW-goo            105,733
   WY                                                                  %ww-                           s10&28
   GA                                                                s1mw3J25             191,421     %431
   OH                                                                $2J23$515,648        w21         39,133
   cr                                                                 S7J-GJV@             49315      s15*1
   M                                                                  s93w9.493            67,495     SlOJ80
   FL                                                                s1$01,199~74         m=8          s6J30
   MO                                                                 s731s&528            97.707     s7w
   OK                                                                 sw=*aJ7              %lS         s&7=
   NC                                                                s1,045,427,100       143974       S-h=1
   TX                                                                s&mm                 270,193      $7375
   AK                                                                  s76327.437           w=        $11,447
   AZ                                                                  $67,185,151         W-4’3       Sl,oa
   VI                                                                   s1,603J07               884    SW14
   PR                                                                  s14478?191          @x+
   NH           NO REPORT AS OF..~~...................,..
                                              ...............
                  s134~4457    ij’j.i~~
NATIONAL                                                            549243217m           5$X$731       s&422

                                                                7
the foreseeable future. First, even the programs being implemented now will not be
fully operational for 2 years or more. Second, most of the programs are targeted
primarily if not solely at the needy family population. Participation by disabled
beneficiaries is often voluntary, and even if mandatory, excludes certain groups (those
in institutions, dual-eligibles,’ those served under special waivers). Third, relatively
expensive specialized services used by significant numbers of disabled beneficiaries
(mental health services, for example) may be “carved out” to continue on a fee-for-
service basis. Finally, while cost savings are projected by the States for these
programs, they are broad, speculative, and in some cases not expected to appear for
the first 2 or 3 years of operation. Also, cost savings may be one of several goals,
taking a backseat to expanding coverage for currently uninsured individuals.

      1915(b)Rogarns 

Section


In addition to statewide programs, all five States have, or are planning, smaller
managed care programs under 1915(b) (“freedom of choice”) waivers, which allow a
State to restrict beneficiary choice of provider. However, they target few such
managed care programs at disabled beneficiaries and in the few cases where data is
available, these programs are serving a small number of disabled beneficiaries.

  .     Programs in New York, Illinois and Texas target needy families.

  .	    In California, participation of disabled beneficiaries is voluntary, and according
        to the General Accounting Office (GAO),i’ only about 4 percent of eligible
        disabled beneficiaries were enrolled in State risk-based managed care programs
        as of February 1996.

  .	    Texas has four 1915(b) applications pending, but participation by disabled
        beneficiaries would be voluntary and the waiver applications project budget
        neutrality rather than savings.

Massachusetts stands out among the sample States in having three large 1915(b)
programs, one targets people with mental illness and another, called The Community
Medical Alliance, targets those severely disabled or with end-stage AIDS. A Health
Maintenance Organization program served about 5 percent of eligible disabled
beneficiaries as of February 1996, per GAO. A Primary Care Clinician Program, a fee
for service program requiring case management, had over 200,000 enrollees in
September 1996, per a State respondent, 53,000 of them disabled. A capitated Mental
Health/Substance Abuse Program had 370,000 enrollees as of April 1996; we were
unable to learn how many were in the “disabled” category; the program serves fee-for-
service and other recipients whether officially categorized as “disabled” or not. These
three programs will be strengthened and folded into the planned Section 1115


   9 Medicare beneficiaries who also receive Medicaid.

   lo Medicaid Managed Care: Serving the Disabled Challenges State Programs, GAO/HEHS-96-136,   July 1996.


                                                         8
demonstration, along with a program that provides insurance for working persons with
disabilities and parents of children with disabilities.”


FEW INlTlATlVES TARGETED AT TOP EXPENDITURES FOR DISABLED
PERSONS: Sample States have few initiatives to reduce costs for hospital inpatient
and Intermediate Care Facilities-Mentally Retarded (ICFs-MR) services, which
account for the largest proportions of their spending for the disabled.

Figure 3 shows the eight services that collectively accounted for almost 90 percent of
Medicaid
expenditures for
disabled                      MEDICAID ExPENDrmRES       FOR DISABLED BENEFICIARIES BY
beneficiaries in                            TYPE OF SERVICE: FYs 1993 - 1995
1995.                                                                            FY1995ASA
                                                                                                                              PERCENT OF
Spending for                                                                                                                    TOTAL
inpatient hospital                             1993          1994
and intermediate                                                                                          .........
                                                                                                                 . ........::‘:i:,,::,:i:-i:l:~,~:::
                                                                                                                         ...,.,.,.,:.:,:.:
                                                                                                                           . :,:.,.,.,.,.,.
                                                                             :.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:::::.:.:.,.:
                                                                                                                                       ~
                                                                             :j:j:j:j:j:j:j:i:j:j::$$:::::j::
                                                                                                          ::;; ;i;i:~,;:
                                                                             :.:.:.:.:.:.:,:.:,~,:,~.:.~.:::.’.:...’.   :.ij:i:i:::::::::::::::::::::::::::
                                                                                                                      .,.,.,.,...,.,.,.,.,.,.,.,.,.,.,.,.,.,
care facility-mental                                                                                   .‘.‘:.:.:‘.~:..:‘,::.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.
                                                                     Sll&    ~~~~~~~~~                                                                   23%
                                               s10.2b     s11m               ...................... ..,..
                                                                                                      .,...:.;: ..... :.
retardation (ICFs-
MR) services                                   $82        $ 7.7b
                                                                                                          .,.,..........\...........
                                                                               :::::::::::::::::::::,....:..       ,..:,:,:.:.:.:.:.:.:.:.:.:.:.:.:.
                                                                             :.:.:.:.:,:.:,:,:.:,:.:.:,:,:,:,:,:,:,:,:,:::::~.~...~...~...~.:.~:.:
                                                                                                       .Pi...    ......................................................
combined has                                                                  .:.:.:.;:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:
                                                                                . ...       ..... . .>,.:.:.>:
                                                                                ........,........
                                                                                            .......   . ......:..::.....
                                                                                                             >~~:.~:.:.:::::::::~:;:;:~:;:~:~:
                                               $ 3.ob     $ 4.lb     $ 4jm     ””::.:.:.i.:.;i;:;i:~:i~~
                                                                              ~~,::,:.‘,‘,:.-,:’                                                                        12%
accounted for over                                                             :::ixii:i:i:!i:~:ii;......
                                                                                                                        .,.,.,.,...,.,.,~,~.~.~.~.
                                                                             .:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:
                                                                                                                 .,.,.,.,.....,.,...(..              .,.,.,.,.
40 percent of                                                                  ::::::::::::::::::::::::::::::::::::::::::::::::::::::::::.:.:.:.:.:.:.:.:.:.:.
                                                                               .:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:....
                                                                                                      :.:.:.:.:.:.:.:.~:.:.~:.:.~~:::::::::::::     :.........
                                                                     $ 4Bb   ~~~~~~
national Medicaid                              $ 3&       S 4.lb             ..:,:.:.:.:.:.):.:.~.~.~.~.~.:.~.~.~.:
                                                                                                  ;.:.:.:,~~~~~:.:.~:.~~:.~~:.:.:.:.:.:.:.:.                            10%
                                                                               ::::::::::::::::::::::::::::::::::::::::~~,~
expenditures for                               $ 39       $ 4.lb
                                                                     $ 45b   &::::  :.
                                                                                     ...
                                                                             .:,:.I:I:;:;l;iiii~~~~~~~~~~                                                                9%
                                                                             .:::::::::::::::::.:.:,:.:.:.:.:.:.:.:.:.:.~.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:
the disabled since
1993, although the                             s2ob       s22b                                                                            5%
proportion of
expenditures they                              s2ob       $2lb                                                                                               5%
                                                                                    ............................................. ...:......       ,.
                                                                                                                                             .,,.,.,,.
                                                                                                                                     ....;>::.:::::::::.:::
                                                                                                                                   ..v....
                                                                             ‘,~:,:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.::
                                                                                                                                    :.::  .
                                                                             ,::::::::::::::.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:..:
                                                                                                                                        .. .
                                                                                                                                           . .
                                                                                                                                            ..  .. .
                                                                                                                                                   ...
                                                                                                                                        ;:-..:>,::::::::::
represent dropped                                                    $ 2ob
                                                                             :‘:‘:.:.:.:.:‘:.:.:.:.:.:.~:.:.:.:.:.:.:.:.:.:.:.:.:.:...:.:.:.:...::.:~~~:~~:~:
                                                                             j:ili~~~~~~~~s::i-i:i:l
                                                                             .;::..
                                               $ Mb       $ 19b                            :.:..                                                             4%
from 48 to 43                                                                   .. i............                                     :.... :...:
                                                                                                                                               ..:.:
                                                                                                                                                   ..:.:
percent in that                                $ 39b      $ 5.lb     $6’&    ~i:i;a.~~~~~~~
                                                                             .:.:                                                                           12%
                                                                               .i,.,.,.,.ii,.i,.,.ii...,.,...,...,.,.,.,.,.,.,...,.,...,.,.,.,.................
time, affected
                              TOTAL            s38hb      S423b                                                                        100%
primarily by a
dramatic increase             � Included in the “Other” category are expenditures for: mental hospitak for the aged,


of 93 percent in              SNF/ICF for the a& psychiatric facilities for agei 21 and under, all other ICFs, denta&other
                              placti-      family pIrIMing laboratoly and x-ray, early and periodic screenin& rural health
home health                   diniqamlothermisix~serviceg
expenditures.
                              Figure 3




     I1 In a non-waiver program, Massachusetts also provides in-home services to persons with severe physical
disabilities or HIV/AIDS through two special providers. However, the thrust of this program is to enhance access
and quality of care rather than cost containment.


                                                         9
In developing cost containment strategies, we assumed that the sample States might
target the services costing them the most money. As Figure 4 on the next page shows,
in 1995 those services were most often inpatient hospital and ICFs-MR. Home Health
represented the highest services in Massachusetts.

We found no initiatives in these States, managed care or otherwise, targeted at
hospital inpatient costs for the disabled. l2 Nor do the managed care programs in
these States specifically target ICFs-MR costs. However, every State serves some
beneficiaries with mental retardation or developmental disabilities through a 1915(c),
or home and community based care, waiver. These waivers are part of the States’
gradual but strategic shift away from costly placements in institutions such as nursing
homes and ICFs-MR. The waivers are serving from 3,600 in Illinois to over 30,000 in
California, many more than other 1915(c) waivers in these States but still a small
proportion of total disabled beneficiaries there.

States are required to submit a Form 372 to HCFA annually for each 1915(c) waiver
reporting the number served and budget figures, including any cost savings. For these
mentally retarded/developmentally   disabled waivers, the sample States reported per
capita cost savings ranging from $3,900 to over $100,000 (projection for 1999).
However, we are not convinced that these figures are reliable. For example, some of
the Form 372s were submitted 2 or more years late, or not at all and these data
provided was sometimes missing or projected rather than actual. For particular
waivers (especial model waivers and waivers targeted to individuals with
developmental disabilities who were deinstitutionalized as a result of the PASARR
programs), the States are not required to complete an entire 372 form. Therefore,
even though State respondents believe in the value of the waivers in terms of saving
costs (as well as enhancing access and quality of services), we cannot come to any hard
and fast conclusions on the question of how much they save, for how many.

On a related note, Massachusetts and New York respondents credited these waivers
with enabling them to move or divert thousands from institutional placements.
However, it has not been easy to close those institutions completely. The relatively
low number of placements in the remaining large ICFs-MR translated into a very high
per capita ICFs-MR Medicaid expenditure for 1995: $161,000 in Massachusetts and
$160,000 in New York.

In the two sample States where services other than inpatient hospital or ICFs-MR
were highest in expenditures, we found no cost containment strategies targeted at
them.




    I2 Cost containment has been a strong focus in the California Medicaid program for many years, resulting in one
of the lowest per capita Medicaid cats in the country. For example, the State has a special commission which
negotiates provider reimbursement rates, including hospital rates. It has freedom of choice waivers limiting the
providers from which beneficiaries can obtain hospital inpatient, and inpatient psychiatric, services. However, these
measures cut across all populations rather than targeting expenditures for the disabled, specifically.


                                                         10
                TOP CATEGORIES OFMEDICAJD EXPENDITURES                                           FOR DISABLED
                              BY TYPE OF SERVICE: FY 1995

                                                                   %-mP               SECOND             %         %
                                                                   TOTAL              SERVICE         SECOND     TOTAL
                                                                     s                   s            TOTAL S   SERVICES
                                        .,....
                i:~~.:~~:~:x:~:i:~:~:i:~:~:#:i:i:I:i:I:i:I:I:I:i:i:::~:~,
                .,.,.i,...,.,._.j,...i,._.ii.,.,.,.,.,.,.,.,.,.,.,.,.
                                        )>...                                          SNFimd
                                             .,
                :.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.    Preserihed
                                                                           27%          -w                        54%
                                                                                         S1.2b
                                                                                     (-bi=d)
                                                                                      Inpatient
                                                                     26%              Hospital          23%       49%
                                                                                        s22b


                                                                     36%               ICF-MR           18%       54%
                                                                                        S05b


                                                                     30%               ICF-MR           28%       58%
                                                                                        $055b

                                                                                     ICF-MR and
                                                                                       Inpatient
Massacbusetss                                                            22%           HCl6pitiXl        33%      55%
                                            ...._,.,.
                :~:3i:~:~.~:~#:~~:~:1:8:~:~.~:~~~:~~:~:~:~~:~:~:~
                :.:.:::::j::::j::::::::::jj:::::::::j:i:j:i:j:::::::::::
                :.:.......
                    ......./..,.,..............
                                    ....
                                    ... . ....
                                           . . .....                                                  em-1
                ‘.“.“.‘.“.......:.:.:.:.:.:.:.~.:.:.:.:.:.:.:.:.:.:.:.:.:.:.
                ::i:i:%:~:~:~X::::~::::::::~::.::::::::::::::::::::::::
                                                ..,.



                                                                     28%                s5.ob           24%       52%


                                                                                       ICF-MR
                                                                      23%               $9.7b           20%       43%

Figure 4



 .	   California, where prescription drug and skilled nursing facility expenditures
      share second place, has taken some steps, and proposes others, to reduce costs
      across the entire Medicaid population but not specifically the disabled. For
      example, the State limits prescriptions to six per month per Medicaid enrollee,
      which undoubtedly affects beneficiaries with chronic illnesses or disabilities the
      most. A special State drug rebate program negotiates with manufacturers for
      savings of $20 to $30 million over savings from a Federal program.

 .	    In Massachusetts, home health expenditures, the top category of service at 21
       percent of all expenditures, are high to a great extent due to the State’s
       deliberate expansion of a 1915(c) ICFs-MR waiver, which accounts for half of
       all the expenditures in this category. As for the other services under “home
       health,” we found no plan to contain them.


                                                                     11
DISABILITY INITIATIVES ARE MODEST                  States also use waivers to serve other
relatively small groups of disabled beneficiaries. Their impact on cost containment is
not clear.

All States in our sample have 1915(c) waivers that serve various disabled populations.
Massachusetts has one waiver (the one previously mentioned that serves persons with
mental retardation and developmental disabilities). The other States reviewed have
four or more. Texas has had preliminary discussions with HCFA about a potential
1915(c) to integrate acute and long-term care services for elderly or disabled people,
whose participation would be voluntary.

As previously noted, all five States serve thousands of recipients with mental
retardation or developmental disabilities. Illinois has a waiver serving 13,381 persons
with physical disabilities. Illinois, New York and California serve persons with
AIDS/HIV. Other 1915(c) waivers in these States almost all serve very small numbers
of severely disabled persons, including children. New York, for example, has five
“Care At Home” waivers for children with various disabilities and service needs, each
serving approximately 100-200 children in 1994 or 1995.

While these waivers may well be improving access and quality of care, it is difficult to
conclude they are resulting in significant cost savings relative to all expenditures for
disabled beneficiaries. Most are serving a small number of people. Second, as
mentioned previously, cost data reported for 1915(c) waivers is not always available,
timely, or complete.


RECOMMENDATION

The Health Care Financing Administration and the Office of the Assistant Secretary
for Planning and Evaluation should develop a research agenda aimed at controlling
costs while assuring quality of care for disabled Medicaid beneficiaries.

We are aware that there is a lot of Medicaid experimentation being conducted by the
States, primarily through waivers and managed care. After examining the literature,
participating in conferences and discussing both the waivers and other plans with
appropriate State personnel, our findings indicate that the large States in our sample
have not yet come to grips with the difficult problem of providing quality care, yet
containing costs, for the Medicaid disability programs. While these findings do not
lead to recommendations for quick fixes or even for programmatic changes, we do
believe that there is a compelling need to better understand the significant cost forces
that these disability programs portend for the broader Medicaid program of the future.

The need then is to develop a research agenda at the Federal, State and local levels
that examines the cost and quality of health care for this population. A starting point
could be the Health Care Financing Administration’s and the Assistant Secretary for



                                             12 

Planning and Evaluation’s research agenda that focuses on managed care for people
with disabilities. Efforts, other than managed care, could include focusing on
ICFs-MR, skilled nursing facilities, and in-patient hospitals. Home and community
based waivers and other significant initiatives that are important for persons with
disabilities should also be studied. We believe that constructing a research agenda for
the future now will result in better quality care and cost savings in the next 5 to 10
years.

We recommend that the Health Care Financing Administration and the Office of the
Assistant Secretary for Planning and Evaluation jointly develop such a research
agenda.

In response to HCFA’s request, we suggest, among others, the following six studies:

  .	    A historical study of the Medicaid treatment received by people with
        disabilities. This study would focus on the efficacy of current public programs
        ability to provide the myriad health care, rehabilitative and support services
        required by the Medicaid disabled population.

  .	    The development and evaluation of the efficacy of integrated care models for
        financing acute and long-term care for people with disabilities.

  .	    A comparative evaluation of the Medicaid disabled population served by State
        managed care health care systems and fee-for-service systems.

  .	    A comparative evaluation of access, quality and costs under selected State
        ICFs-MR programs.

   .	   An evaluation of the appropriateness of various services and care settings for
        the Medicaid disabled population based on their ability to produce the most
        efficient and effective outcomes.

   .	   An evaluation of the appropriateness of medical requirements in State
        Medicaid programs that impact people with disabilities. This study would
        examine the extent to which these requirements act as barriers to consumer
        independence and if these requirements could be reduced or eliminated to
        effect greater consumer control and reduce costs without jeopardizing the
        health and safety of consumers.


AGENCY      COIvfMENTS

We received comments from the Health Care Financing Administration (HCFA), the
Assistant Secretary for Management and Budget (ASMB) and the Assistant Secretary
for Planning and Evaluation (ASPE). All concurred with the recommendation and
offered suggestions for clarifications and technical comments regarding the report.


                                            13
Changes have been made to the report based on these comments as appropriate. The
complete text of HCFA’s, ASMB’s, and ASPE’s comments can be found in Appendix
B.

We would like to specifically address two issues, one raised by ASMB and the other by
HCFA. The ASMB commented that our data on Medicaid disability costs did not
agree with the HCFA actuary data. The Medicaid expenditure data to which ASMB
refers are figures HCFA’s Office of the Actuary derive from two forms, HCFA-64 and
HCFA-2082. As a result, these numbers differ somewhat from the numbers contained
in Figure 2 of our report. We extracted our data from the HCFA-2082 only, because
we needed expenditures by type of service for the disabled and the HCFA-64 did not
include this specificity. Our expenditure data do match closely to data reported in
HCFA’s 1995 Medicaid Statistics publication.

The other issue, raised by HCFA, concerned the HCFA-372 reporting forms. The
HCFA disagreed with our determination that the reliability of data contained on the
HCFA-372 reporting forms was questionable due to the fact that we found these data
to be not always available, timely, or complete. The HCFA states that some States
are not required to complete the entire form, particularly model waivers and waivers
targeted to individuals with developmental disabilities who were deinstitutionalized as
a result of the PASARR programs. Moreover, HCFA states that these data are to
reflect actual expenditures (recorded by date of service) for Medicaid services
furnished to individuals participating in the waiver program, as well as for individuals
at a comparable level of care receiving services in institutions. These data are to be
submitted each year, with a lag report submitted a year later, to correct incomplete
data that may have resulted from late billings, insurance adjustments, etc. The HCFA
says they are aware that some forms have been submitted after the specified
deadlines, but, they are not aware of generalized deficiencies in the data.

Having reviewed the HCFA-372 data for our five sampled States, we are not certain
that these data are accurately reported. Perhaps HCFA should look further at these
data and test for reliability. Our concerns are bolstered by one State respondent who
admitted having difficulty in trying to gather comparable costs for institutionalized
patients. The respondent stated that many other States were experiencing this same
problem because, having removed all of their target group members from the
institution, they have no equivalent inpatient cost and thus must “construct” the right
side of the formula just for the report. One HCFA official stated that one State in
their region seldom submits the HCFA-372 reports. This problem exists because,
except for the children’s waivers, the home and community based services waivers are
scattered organizationally throughout various State offices. No one individual is
responsible for gathering the data requested on the form.




                                           14 

APPENDIX       A





  BIBLIOGRAPHY 





       A-l
Ashbaugh, John and Smith, Gary, “Beware the Managed Health-Care    Companies,”
Mental Retardation, June 1996.

“Chronic Care in America: A 21st Century Challenge,” Prepared by The Institute for
Health & Aging, University of California, San Francisco for The Robert Wood
Johnson Foundation, Princeton, New Jersey, August 1996.

Croze, Colette. “Medicaid Managed Mental Healthcare,” The Center For Vulnerable
Ponulations, November 1995.

“Health Care Financing Review: Medicare and Medicaid Statistical Supplement,”
DHHS/Health Care Financing Administration, September 1995.

“Health Needs And Medicaid Financing: State Facts,” The Kaiser Commission on the
Future of Medicaid, Washington D.C., April 1995.

Holahan, John, et al. “Insuring The Poor Through Section 1115 Medicaid Waivers,”
Health Affairs, Spring 1995.

Holahan, John, et al. “Cutting Medicaid Spending In Response To Budget Caps,”
The Urban Institute, Washington, D.C., September 1995.

Holahan, John, and Liska, David. “Expenditure Caps and The Distribution Of Federal
Medicaid Payments,” The Urban Institute, Washington, D.C., September 1995.

Holahan, John, and Liska, David. “The Impact Of The “Medigrant” Plan On Federal
Payments To States,” The Urban Institute, Washington, D.C., December 1995.

Iglehart, John K. “Health Policy Report: Medicaid and Managed Care,” The New
England Journal Of Medicine, Vol. 332, No. 25, June 22, 1995.

“Long-Term Care: Diverse, Growing Population Includes Millions of Americans of All
Ages,” United States General Accounting Office, GAO/HEHS-95-26, November 1994.

“Medicaid and Federal, State, and Local Budgets,” The Kaiser Commission on the
Future of Medicaid, Washington D.C., March 1995.

“Medicaid at the Crossroads,” The Kaiser Commission on the Future of Medicaid,
Washington D.C., November 1992.

“Medicaid In California: The Impact of Congressional Medicaid Changes,” The Kaiser
Commission on the Future of Medicaid, Washington D.C., October 1995.




                                       A-2 

“Medicaid In Transition,” The Kaiser Commission on the Future of Medicaid,
Washington D.C., October 1995.

“Medicaid: Long-Term Care: Successful State Efforts to Expand Home Services
While Limiting Costs,” United States General Accounting Office, GAO/HEHS-94-167,
August 1994.

“Medicaid Managed Care: Serving the Disabled Challenges State Programs,”      United
States General Accounting Office, GAO/HEHS-96-136, July 1996.

“Medicaid’s Role For Persons With Disabilities,”   The Kaiser Commission on the
Future of Medicaid, Washington D.C.

“Medicaid: Spending Pressures Drive State Toward Program Reinvention,”      United
States General Accounting Office, GAOHEHS-95-122, April 1995.

“Medicaid: States Turn to Managed Care to Improve Access and Control Costs,”
United States General Accounting Office, GAO/HRD-93-46, March 1993.

“Medicaid Statistics: Program and Financial Statistics Fiscal Year 1993,”
DHHS/Health Care Financing Administration, October 1994.

“Medicaid Statistics: Program and Financial Statistics Fiscal Year 1994,”
DHHS/Health Care Financing Administration, October 1996.

“Medicaid: Tennessee’s Program Broadens Coverage but Faces Uncertain Future,”
United States General Accounting Office, GAO/HEHS-95-186, September 1995.

“Reducing the Deficit: Spending and Revenue Options,”     United States Congressional
Budget Office, August 1996.

“Residential Services for Persons with Developmental Disabilities: Status and Trends
Through 1995,” Research and Training Center on Community Living, University of
Minnesota, Minneapolis, MN, Report #48, May 1996.

Saucier, Paul, and Riley, Trish. “Managing Care for Older Beneficiaries of Medicaid
and Medicare: Prospects and Pitfalls,” National Academv for State Health Policv,
September 1994.

Saucier, Paul. “Federal Barriers to Managed Care for Dually Eligible Persons,”
National Academv for State Health Policv, August 1995.

Saucier, Paul, and J. Elizabeth Mitchell. “Directory of Risk-Based Medicaid managed
Care Programs Enrolling Elderly Persons or Persons with Disabilities,” The Center for
Vulnerable Populations, September 1995.



                                         A-3 

Saucier, Paul. “Public Managed Care for Older Persons and Persons with Disabilities:
Major Issues and Selected Initiatives,” The Center for Vulnerable Populations,
November 1995.

Serafini, Marilyn Werber.   “Not Your Father’s HMO,” National Journal, Vol. 27, No.
42, October 21, 1995.

Snow, Kimberly Irvin. “State Long Term Care Programs At A Glance,” The Center
for Vulnerable Ponulations, December 1995.

State Initiatives In Health Care Reform, The Robert Wood Johnson Foundation,     No.
15, November/December       1995.

State Initiatives In Health Care Reform, The Robert Wood Johnson Foundation,    No.
16, March/April 1996.

“State Variations In Medicaid: Implications For Block Grants And Expenditure
Growth Caps,” The Kaiser Commission on the Future of Medicaid, Washington D.C.,
March 1995.

“Strengthening Partnerships Between State Programs For Children With Special
Health Needs And Managed Care Organizations,” Maternal and Child Health Policy
Research Center, Washington, D.C., March 1996.

Tanenbaum, Sandra J., and Hurley, Robert E. “Disability and the Managed Care
Frenzy: A Cautionary Note,” Health Affairs, Vol. 14, No. 4, February 1996.

The Twentieth Century Fund, “Medicaid Reform: A Twentieth Century Fund Guide
to the Issues,” Twentieth Century Fund Press, New York, NY, 1995.

The University of Wisconsin-Madison Institute for Research on Poverty’s Focus
newsletter, Vol. 17, No. 3, Spring 1996.




                                         A-4 

APPENDIX      B





AGENCY COMMENTS 





      B-l
        DEPARTMENT   OF HEALTH    t?aHUMAN   SERVICES                   Health Care Financing Administration



                                                                        The Administrator
                                                                        Washington,   D.C.   20201




                 JUN - 7 1997
DATE:

TO: 	         June Gibbs Brown
              inspector General

FROM: 	       Bruce C. Vlad
              Administrator

SUBJECT: 	 Off&e of Inspector General (OIG) Draft Report: “Cost Containment for
           Medicaid Disability,” (OEI-05-95-00400)


We reviewed the above-referenced report that identifies trends in the growing number of
disabled Medicaid beneficiaries and expenditures related to them.

Our detailed comments on the report recommendations are attached for your
consideration. Thank you for the opportunity to review and comment on this report.


Attachment




                                               B-2 

       Comments of the Health Care Financing Administration (HCFA) on the 

                 Offke of Inspector General (OIG) Draft Report: 

          “Cost Containment for Medicaid Disabilitv,” (OEI-05-95-00400) 


OIG Recommendation

The Health Care Financing Administration and the Office of the Assistant Secretary for
Planning and Evaluation should develop research agenda aimed at controlling costs while
assuring quality of care for disabled Medicaid beneficiaries.

HCFA Response

We concur. HCFA would like the OIG to include ideas for more specific research
projects. We have comments on the fmdings as follows:

Finding 1: Rapid Growth of Medicaid Disabilitv Programs. Between 1993 and 1995,
the number of disabled beneficiaries grew 17 percent and related expenditures grew
27 percent. In 1995, Medicaid expenditures for disabled persons were more than double
the proportion of the Medicaid disabled population.

HCFA Response

We concur.

Finding 2: Broad Strategies Not Targeted at Disabled Population. Sample states
target Medicaid cost containment primarily at the less expensive needy family programs
rather than the more costly disabled programs.

HCFA Response

We suggest the conclusion relating to the section 1115 demonstration programs be
omitted. The discussion draws a conclusion that the demonstrations will not result in cost
savings for the disabled population and postulates a number of reasons for this
conclusion. The report, however, does not provide evidence to support this conclusion.
Only two of the five sample states implemented a section 1115 demonstration program.

Beneficiaries with disabilities continue to express concerns about the shift to managed
cariz and the potential for loss of access to needed specialized services and continuity of
care. Extending managed care coverage to individuals with disabilities poses great
potential to improve care but also challenges us to ensure the care delivered in a managed
care environment is appropriate, accessible, and sensitive to the needs of individuals with
disabilities. Potential benefits of providing Medicaid services to individuals with

                                              B-3
Page 2

disabilities in a managed care environment include: enhanced coordination of care,
convenience, emphasis on preventive services and community-based care, and flexibility
of benefits.

Currently, the Office of Managed Care, Medicaid Managed Care Team, is providing
technical assistance to several states developing section 1915(b) waivers to serve persons
with disabilities, and to safeguard options that promote meaningful quality of life,
maximum dignity, and respect. In addition, the team hopes to ensure participation in care
decisions, independent living in community settings, preservation and support of natural
support systems, and cost effectiveness.

FindinP 3: Few Initiatives Tarpeted at Top Expenditures for Disabled. Sample states
have few initiatives to reduce costs for hospital inpatient and intermediate care facilities
for the mentally retarded (ICFs/MR) services, which account for the largest proportions
of spending for the disabled.

HCFA Response

The report states, “Every State except Texas serves some beneficiaries with mental
retardation or developmental disabilities through a 1915(c)...waiver. ” Texas has four
different home and community-based services (HCBS) waiver programs targeted
specifically to the needs of people with mental retardation or developmental disabilities.
These waivers are listed under the following control numbers: 0110.90.R1, 0221.90,
0240, and 028 1.

The longest numiug of these (0110.9O.R.I)is targeted toward individuals with mental
retardation or developmental disabilities, and has been in operation since the mid-1980s.
The latest, 0281, has been in operation since March 1, 1995, and is targeted specifically
towards individuals age 18 or over with developmental disabilities and concurrent
diagnoses of deafness and blindness. We can provide details on these waiver programs
should the OIG require this information.

Also, the report states that data on the 372 forms (the annual form states must submit to
document the spending, health, and welfare of waiver beneficiaries) are projected, rather
than actual, and that some data were missing. For particular waivers (especially model
waivers. and waivers targeted to individuals with developmental disabilities who were
deinstitutionalized as a result of PASARR programs), the states are not required to
complete an entire 372 form. Moreover, the data that are supplied are to reflect actual
expenditures (recorded bydate of service) for Medicaid services furnished to individuals
participating in the waiver program, as well as for individuals at a comparable level of

                                              B-4
Page 3

care receiving services in institutions. These data are to be submitted each year, with a
lag report submitted a year later, to correct incomplete data that may have resulted from
late billings, insurance adjustments, etc. Although we are aware that some 372 forms
have been submitted after the specified deadlines, we are not aware of generalized
deficiencies in the data.

The report also questioned the large amount of savings-reported on the 372 forms. Since
HCBS waivers serve as alternatives to expensive institutional care, it is not surprising the
savings reported are large. We are aware of the very high cost of ICFs/MR care,
particularly when that care takes place in aging institutions with extremely high fured
costs. Although states have made great strides towards community placement and
downsizing of these institutions, their abrupt closing has often been infeasible, since the
impact would be not only on the Medicaid population being served, but the economy of
entire areas of the state. We are supportive of state efforts to phase out the use of these
institutions, and note the HCBS waiver program has been used by states as an effective
alternative to the continued use of these very high cost facilities.

Finding 4: Disabilitv Initiatives are Small: States also use waivers to serve other
relatively small groups of disabled beneficiaries. Their impact on cost containment is not
clear.

HCFA Response:

We suggest the OIG clarify the heading for this finding. We suggest “disability initiatives
serve small segments of the disabled population.”

In addition, we suggest the conclusion relating to section 1915(c), be deleted. The report
concludes the section 1915(c) waivers do not result in significant cost savings relative to
all expenditures for disabled beneficiaries. The report contains no evidence to support
this statement. In fact, the report states that cost data are “not always available, timely,
complete or reliable.”

Technical Comments:

We suggest the OIG limit the findings section to findings only. For clarity, we would like
to see conclusions in a separate section.




                                               B-5 

         DEPARTMENT       OF HEALTH & HUMAN        SERVICES                          office of the Secretary



                                                                                     Washington, D.C. 20201



                                                                                    MAR     2   I   1997


NOTE TO:        George Grob


THROUGH: 	 LaVame Burton
           Deputy Assistant Secretary for Policy Initiatives

FROM: 	         Ashley Filem
                Peter Harbag&y

RE: 	           Review of IG Report “Cost Containment for Medicaid Disability
                Programs”

In response to your memorandum of January 29, 1997, please find our comments regarding a draft
report from the Office of the Inspector General titled “Cost-Containment for Medicaid Disability
Programs,” m                        0@?5-m440

Please note that the most critical objection occurs on page 7 regarding a chart that displays FY 1995
Medicaid spending on the disabled. According to HCFA actuaries, this information does not
correspond to HCFA data on this topic. We strongly recommend that this discrepancy be resolved
before the report is made public.

If you have any questions, please feel free to contact Peter Harbage or Ashley Files at 202-690-6553.

Page I
Although the purpose states that the report will discuss quality control, there is almost no mention of
quality control efforts in the report.

Page 2 - 3rd Paragraph
What was total Medicaid spending adjusted for inflation from 1993 to 1995?

Page 4 - First Paragraph
It would be helpful if there was a longer discussion of States that have cost containment efforts. The
report never makes it clear that there are effective cost containment ideas that States could implement
regrading Medicaid Disability. Although managed care is discussed later in the report, it would be
helpful to know the other cost containment strategies beyond managed care.

Also, the report states that there is very little activity in terms of cost containment taking place. It
would be helpful to know if the five focus States have ever initiated any cost containment efforts with
regard to Medicaid disability programs. If States have, why were the initiatives terminated?



                                                   B-6 

Page 5 - 1st and 3rd Bullet
It would be helpful to have a chart showing each States’ trends in Medicaid disability expenditures and
the growth in beneficiaries over the three year study period.

Page 5 and Throughout the Report
The report indicates that the number of disabled Medicaid beneficiaries grew from 5 to 5.8 million or
17% from 1993 to 1995. However, the growth rate from 5 to 5.8 is EX2 not 17%.
Growth = (5.8 - 5)/5 = .16

Page 6 - 2nd Bullet
A brief discussion of why there is such wide variation in the per capita expenditures in each State
would be helpful.

Page 6 - 3rd Bullet
The analysis shows that the per capita expenditures on Medicaid disability beneficiaries adjusted for
inflation is flat during the three year study period. In fact, it decreased from 1993 to 1994. This may
lead some to conclude that cost containment initiatives are not needed, especially given the high
expenditure growth rates in other parts of Medicaid. Given the flat per capita growth, there needs to
be a discussion of why cost containment is still important. It could be the case that States do not feel
cost containment is an issue given this flat growth. It would also be helpful to know the per capita
spending stream for all of the States.

Page 6
The report provides the per capita growth adjusted for inflation but not the overall growth of
Medicaid disability expenditures adjusted for inflation. What is the overall growth rate adjusted for
inflation? Is the overall growth flat as well?

Page 7 - Chart
According to HCFA actuaries, the chart given on page 7 does not correspond to their data on 

Medicaid disability expenditures. Before the report is released, we feel that it is critical that this 

discrepancy be resolved. 


Page 9 - Chart 

The “other” category of setvice grows at 59%, the third highest growth rate given on the chart. It 

would be helpful to discuss the services provided in this category and why the growth rate is so high. 


Page 13 - 1st Paragraph - Last Line
Use “cost savings” instead of “cost dividends.”

Also-
A chart showing what disability services are provided by each State would be helpful.

It would be interesting to see the per capita growth in cost for the services listed in the chart on page
9.

It would be interesting to see a comparison of growth rates in expenditures for similar disability
services covered by private sector insurance companies. Is Medicaid spending on these services
growing faster or slower than in the private sector?


                                                    B-7
        DEPARTMENT      OF HEALTH     &HUMAN      SERVICES 	                      Office of the Secretary



                                                                                  Washington,   O.C.   20201




TO: 	            June Gibbs Brown
                 Inspector General

FROM:            David F, Garrison
                 Principal Deputy Assistant Secretary
                  for Planning and Evaluation

SUBJECT: 	       OIG Report on Cost Containment for Medicaid Disability Programs-­
                 CONCUR WITH COMMENTS

We greatly appreciate the OIG’s efforts to involve OASPE staff during the preparation of this
report, and we concur with their recommendation that OASPE and HCFA jointly deveIop a
research agenda.

However, upon reading the report we have a few suggestions:

.	       You might want to mention that there is no evidence presented in this report that
         Medicaid expenditures for persons with disabilities are inappropriate. Although cost
         containment is important, there are other goals in administering state Medicaid programs,
         especially improving service delivery systems and quality of care for persons with
         disabilities.

.	       It would be useti to describe more detailed state program efforts to care for persons with
         disabilities. For example, much of the effort toward d&institutionalization has taken
         place to improve quality of care and quality of life, One consequence has been rapid
         increase in expenditures for home and community-based services. Perhaps New York
         until recently has had a more generous home and community-based services program
         than can be justified, but the increase in such services are generally viewed as su~c~sscs.
         Similarly, state managed care efforts have several objectives, Cost containment is
         certainly one of them, but improviag access to care, improving emollees satisfaction, and
         improving continuity and quality of care are also important objectives.

.        Please clarifl the first sentence on page 5,




                                                    B-8 

